Department of Homeland Security
   Office of Inspector General

   Review of the U.S. Department of Homeland Security's 

                     Recovery Act Plan





      American Recovery and Reinvestment Act of 2009





OIG-10-57                                               February 2010
                                                            Office ofInspector General

                                                            u.s. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                                  FEB 18 2010


MEMORANDUM FOR:               The Honorable Elaine C. Duke
                              Und~r Secretary for Management


FROM:
                             ~~~
                             KlChard L. SKinner
                              Inspector General

SUBJECT:                      Final Letter Report: Review of the U.S. Department of
                              Homeland Security's Recovery Act Plan (OIG-IO-57)

Attached for your information is our report, Review ofthe U.s. Department ofHomeland
Security's Recovery Act Plan. The department did not provide comments on a draft of
this report for inclusion in the final report. The report does not contain recommendations.

The Department of Homeland Security generally developed a practical and
comprehensive plan to provide transparency and oversight of Recovery Act funds. DHS
implemented transparency and oversight mechanisms to ensure compliance with Office
of Management and Budget Guidance.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post the
report on our website for public dissemination.

Should you have any questions, please call me, or your staff may contact Anne L.
Richards, Assistant Inspector General for Audits, at (202) 254-4100.
Background
The American Recovery and Reinvestment Act of 2009, Public Law 111-5 (Recovery Act)
was enacted on February 17, 2009, injecting $787 billion in federal funds into the
economy to preserve and stimulate economic growth in the United States. The Recovery
Act made supplemental appropriations to federal departments and agencies for
infrastructure investment, energy efficiency and science, assistance to the unemployed
and disabled veterans, and state and local stabilization. The Department of Homeland
Security (DHS) received approximately $2.8 billion for equipment, construction,
infrastructure improvement, and emergency management grants.

The Recovery Act called for unprecedented levels of transparency and accountability and
included provisions for the establishment of a website (Recovery.gov) that would allow
the public to monitor the progress of the stimulus package. The Office of Management
and Budget (OMB) required each agency to develop formal plans to ensure
accountability and transparency of Recovery Act funds. OMB also provided
government-wide requirements and guidelines to manage Recovery Act activities through
Memorandum M-09-15, Updated Implementing Guidance for the American Recovery
and Reinvestment Act of 2009, dated April 3, 2009 (OMB Guidance). DHS issued its
Recovery Act plan on May 15, 2009. We conducted this review to determine whether
DHS developed a practical and comprehensive plan to ensure transparency and oversight
of Recovery Act funds and complied with OMB Guidance.

Results of Review
DHS generally developed a practical and comprehensive plan to provide transparency
and oversight of Recovery Act funds. DHS implemented transparency and oversight
mechanisms to ensure compliance with OMB Guidance; however, at the time of our
review, DHS was still in the process of assessing its controls to ensure the validity of the
data reported to Recovery.gov. We address issues related to data quality in a separate
report, Process Used by the Department of Homeland Security to Monitor Reporting by
Recipients of American Recovery and Reinvestment Act of 2009 Funds, OIG-10-08,
October 2009.

DHS Developed a Practical and Comprehensive Recovery Act Plan

DHS generally developed a practical and comprehensive plan to manage and oversee the
spending of the Recovery Act funds. DHS’ plan summarized the broad Recovery Act
goals and detailed how the specific component plans met the objectives of the Recovery
Act as required by OMB. DHS also integrated prudent management principles into its
Recovery Act plan. For example, the plan described the accountability mechanisms
senior managers use to regularly review and assess the performance of the programs
receiving Recovery Act funds. The plan also identified areas of risk and the strategies
that DHS implemented to mitigate the risks.




                                              1

Transparency of Recovery Act Funds and Activities

DHS met its transparency requirements by providing a summary of obligations (total
dollars made available) and outlays (total dollars paid out), milestones achieved, and
major planned actions for its Recovery Act funds. DHS reported this information weekly
to OMB for submission to Recovery.gov. In addition, DHS created its own website
(dhs.gov/recovery) to further increase transparency by providing information such as:

       An explanation of the implementation of the Recovery Act,
       An overview of DHS programs affected by the Recovery Act,
       Component plans and weekly reports, and
       Links directing vendors to information regarding opportunities and awards.

Oversight of Recovery Act Funds

DHS met its oversight obligations by implementing a multilayered approach to oversee
the spending of Recovery Act funds and ensure compliance with OMB Guidance. This
approach included program reviews to provide oversight of obligations and outlays for
each program receiving Recovery Act funds. The program reviews included an overview
of each project receiving Recovery Act funds, the program structure chart, contract
strategy or type, cost and schedule, staffing, post-award oversight, and risks or issues.
The reviews also assessed major management challenges facing DHS in relation to the
Recovery Act funds.

DHS developed an Internet reporting tool, the Electronic Program Management Office
(ePMO) system, to record and track the components’ Recovery Act obligations and
outlays. Components enter information manually into the ePMO system, which
generates weekly reports for DHS management, component senior accountable officials,
and budget points of contact. DHS management performs a broad-level review of the
obligations and outlays listed in the weekly reports before submitting this information to
Recovery.gov.

As part of the multilayered approach to oversight of Recovery Act funds, DHS
management participates in the following meetings:

       Daily internal management meetings
       Weekly meetings with the Vice President of the United States
       Weekly teleconferences with other federal agencies
       Weekly meetings and briefings with DHS management, component senior
       accountable officials, and the Secretary of Homeland Security
       Weekly meetings with component leads
       Biweekly meetings with OMB



                                             2

Data Validation Controls

At the time of our review, DHS was still in the process of assessing its controls to ensure
the validity of the data reported to Recovery.gov. DHS was evaluating its controls over
transparency and oversight to create a detailed design and operating assessment. DHS
intended to use the completed design and operating assessment to help establish data
validation controls. We address issues related to data quality in a separate report, Process
Used by the Department of Homeland Security to Monitor Reporting by Recipients of
American Recovery and Reinvestment Act of 2009 Funds, OIG-10-08, October 2009.


Management Comments

The department did not provide written comments on a draft of this report. We discussed
this report with agency officials and where appropriate incorporated their verbal
comments.




                                             3

Appendix A
Purpose, Scope, and Methodology


                   Our objective was to determine whether DHS developed a
                   practical and comprehensive plan to provide oversight and ensure
                   transparency for the expenditure of Recovery Act funds according
                   to OMB guidance and prudent management principles.

                   To accomplish our objective, we:

                      Reviewed OMB Memorandum M-09-15, Updated
                      Implementing Guidance for the American Recovery and
                      Reinvestment Act of 2009, April 3, 2009 to determine guidance
                      applicable to agency-wide Recovery Act plans;
                      Reviewed DHS’ Recovery Act Plan, Creating Jobs While
                      Making America Safer, U.S. Department of Homeland Security
                      Recovery Act Plan, dated May 15, 2009, to determine whether
                      the plan is practical and comprehensive and in compliance with
                      OMB Memorandum M-09-15;
                      Reviewed component programs for compliance with OMB
                      Memorandum M-09-15; and
                      Interviewed senior accountable officials, as well as officials
                      representing the Offices of the Chief Information Officer,
                      Financial Operations, Procurement, and the program
                      management offices.

                   We performed fieldwork at DHS facilities in the Washington, DC
                   area. We conducted our review between April and August 2009
                   under the authority of the Inspector General Act of 1978, as
                   amended.

                   We appreciate the cooperation by DHS management and staff in
                   providing the information and access necessary to accomplish this
                   review.




                                        4

Appendix B
Major Contributors to this Report



                    Linda Howard, Director
                    Sean Pettersen, Audit Manager
                    Brian Blaha, Auditor
                    Lindsey Cabral, Auditor
                    Thomas J. Bobrowski, Program Analyst
                    Lisa Vonder Haar, Desk Officer




                                       5

Appendix C
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                            6

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
